                                                                    EMPLOYMENT AND TRAINING
                                                                    ADMINISTRATION
                      Office of Inspector General—Office of Audit
Department of Labor




                                                                    PERFORMANCE AUDIT OF
                                                                    SOUTH FLORIDA WORKFORCE BOARD
                                                                    WELFARE-TO-WORK FORMULA GRANTS
                                                                    PROGRAM YEARS 1998 AND 1999




                                                                                    Date Issued: September 30, 2004
                                                                                    Report Number: 04-04-002-03-386
                                               September 2004
Department of Labor
Office of Inspector General
Office of Audit                                SOUTH FLORIDA
                                               WORKFORCE BOARD
BRIEFLY…
Highlights of Report Number: 04-04-002-03-
                                               DID NOT ADEQUATELY
                                               MANAGE FEDERAL
                                               WELFARE-TO-WORK
386, a Report to the Assistant Secretary for
Employment and Training September 30,
2004.
                                               FORMULA GRANTS
WHY READ THE REPORT
                                               WHAT OIG FOUND
Welfare-to-Work (WtW) legislation,
passed by Congress n 1997, authorized          OIG found that SFWB did not: (1) have an
the Secretary of Labor to provide $3           adequate financial management system and cost
billion to states and local communities to     allocation plan; (2) verify in-kind contributions of
help welfare recipients in high poverty        more than $1.8 million, and, therefore, could not
areas obtain employment. The South             use them to satisfy the Federal matching
Florida Workforce Board (SFWB) was the         requirement; and (3) meet participant reporting
largest of 24 designated regional              requirements because submissions were
subrecipients authorized to manage WtW         inaccurate and unreliable.
programs within the state of Florida.
                                               WHAT OIG RECOMMENDED
WHY OIG DID THE AUDIT                          We recommend the Assistant Secretary for ETA
                                               require that Florida officials:
OIG audited a $19.8 million WtW Grant
provided to the South Florida Workforce           •   Account for $4.2 million in excess cash
Board, (SFWB) in PYs 1998 and 1999 after              returned by SFWB.
a review and analysis of its financial and        •   Collect interest lost resulting from
participant reporting data as of March 31,            unauthorized cash drawdowns.
2002. SFWB’s job placement costs were             •   Resolve $2.2 million in questioned
six times higher at $39,409 than the                  contract costs.
regional average. Our audit objective was
                                                  •   Adjust financial management reports to
to determine whether SFWB managed the
                                                      correct a $5.5 million reporting error.
Federally funded grant in accordance with
WtW legislation, associated regulations,          •   Ensure that subgrantees establish and
and Office of Management and Budget                   implement effective internal controls over
(OMB) Circulars.                                      financial management systems.
                                                  •   Remove $1.9 million of in-kind
                                                      contributions claimed by SFWB.
READ THE FULL REPORT
The full report, including the scope,          Finally, we recommended that ETA conduct a
methodology, and agency response is            quality review and oversight of data entered into
available on:                                  participant information systems. SFWB officials
                                               have addressed our concerns related to excess
http://www.oig.dol.gov/public/reports/oa/      cash and the in-kind match contribution.
2004/04-04-002-03-386.pdf                      However, SWFB disagreed with our questioning
                                               $2.2 million in contract costs and recommending
                                               collection of lost interest.
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



TABLE OF CONTENTS
________________________________________________________________

Executive Summary ............................................................................................................ i

Assistant Inspector General’s Report................................................................................1

     Finding I

          Inadequate Financial Management System Resulted in
          Mismanagement of WtW Formula Grant Funds.................................................1

          Recommendations..................................................................................................10

     Finding II

          Unauthorized and Unsupported In-Kind Contributions Resulted in
          Noncompliance with Florida’s Federal Matching Requirement.....................14

          Recommendations..................................................................................................16

     Finding III

          Participant Performance Data Reported to Florida and to ETA
          Were Unreliable and Inaccurate ..........................................................................18

          Recommendation ...................................................................................................22

Exhibit A: Schedule of Questioned Costs ......................................................................27

Appendix A: Background ...............................................................................................31

Appendix B: Objective, Scope and Methodology.........................................................33

Appendix C: Acronyms ...................................................................................................40

Appendix D: SFWB’s Response ......................................................................................43
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




           <THIS PAGE INTENTIONALLY LEFT BLANK>




U.S. Department of Labor—Office of Inspector General
Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



EXECUTIVE SUMMARY
Welfare-to-Work (WtW) legislation passed in August 1997 authorized the
Secretary of Labor to provide $3 billion in WtW grants to states and local
communities. These grants were designed to target welfare recipients with the
least skills, education, employment experience and those who live in high
poverty areas. Congress did not reauthorize the program.

The Office of Inspector General conducted a performance audit of the $19,836,352
Federally-funded WtW Grant provided to the South Florida Workforce Board,
(SFWB) under the WtW Formula Grant Program Years 1998 and 1999. SFWB is
the largest of 24 designated regional subrecipients authorized to manage WtW
programs within the state of Florida. SFWB was judgmentally selected for audit
after reviewing and analyzing WtW financial and participant reporting data as of
March 31, 2002, submitted by 95 local boards in United States Department of
Labor’s, (DOL) Employment and Training Administration’s (ETA) Southeast
Region. The average job placement cost per participant for the combined 95 local
boards was $6,383. SFWB’s average was six times higher at $39,409.

Our audit objective was to determine whether SFWB managed the Federally-
funded grant in accordance with WtW legislation, associated regulations, and
Office of Management and Budget (OMB) Circulars describing grantee
obligations and responsibilities. To accomplish this objective, we designed our
audit tests to answer the following three questions.

   •   Did SFWB adequately manage WtW formula grant funds?
   •   Did SFWB satisfy the state’s Federal matching requirement?
   •   Did SFWB comply with mandatory participant reporting requirements by
       submitting accurate and reliable performance reports?

SFWB did not manage the Federally-funded grant in accordance with WtW
legislation, associated regulations and circulars describing subrecipient
obligations and responsibilities. Specifically, its financial management system
was not adequate and resulted in the mismanagement of WtW formula grant
funds; in-kind contributions of $1,857,217 were not verifiable and, therefore,
cannot be used to satisfy the Federal matching requirement; and participant
reporting requirements were not met because submissions were inaccurate and
unreliable.




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                       i
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


Finding I

Inadequate Financial Management System Resulted in
Mismanagement of WtW Formula Grant Funds

As of June 30, 2002, SFWB officials had drawn approximately $19.8 million from
the grant, but only had approximately $7.9 million in expenditures recorded in
their general ledger. The $11.9 million difference represented excess cash. In
August 2002, SFWB returned $8 million to the State of Florida. We were able to
determine that the State of Florida either returned $7.7 million of this to ETA or
reduced their statewide drawdown accordingly. In our opinion, this action
occurred because the rejection of SFWB’s cost allocation process disclosed to
management that approximately $11.9 million in excess and unauthorized WtW
cash was on-hand. Approximately $4.2 million was not accounted for, and as a
result we question these costs. Additionally, as a result of the excess cash drawn,
the US Treasury lost $162,059 in interest earnings relating to the excess cash not
deposited into an interest bearing account. SFWB provided documentation to
support that they returned $4,226,850 to AWI out of WtW grant funds after our
fieldwork concluded.

Also, we question contract costs totaling $2,186,404 resulting from costs that
could not be supported as serving WtW participants and SFWB’s contracting
process not meeting Federal competition requirements. Finally, we identified
internal control weaknesses related to the untimely preparation of financial
statements, unlocated financial reports, grant monies deposited into the wrong
bank account, and inaccurate subsidiary ledger entries. These weaknesses in
internal controls contributed to a significant error in financial reporting. The
June 30, 2002, expenditure report used to track program costs, contained a $5.5
million error that resulted from reported expenditures of approximately $13.5
million compared to general ledger entries of $8 million.

Finding II

Unauthorized and Unsupported In-kind Contributions Resulted in
Noncompliance with Florida’s Federal Matching Requirement

SFWB’s in-kind contribution of $1,857,217, used to help satisfy the state’s Federal
matching requirement, was not verifiable. Specifically, $855,091 does not meet
the requirements for in-kind contribution. The remaining $1,002,126 does not
meet the Code of Federal Regulation’s (CFR) verifiable and traceable


                                 U.S. Department of Labor—Office of Inspector General
ii                                                       Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


requirement because supporting documents were not retained to substantiate
that the match occurred. After our fieldwork ended, the State of Florida has
provided documentation that it was able to meet its match requirements without
the use of SFWB’s contribution.

Finding III

Participant Performance Data Reported to Florida and to ETA Were
Unreliable and Inaccurate

SFWB did not comply with mandatory participant reporting requirements.
Performance reports submitted to Florida and the DOL-ETA were inaccurate and
unreliable. Using statistical estimation techniques, we project 1,173 of the
program’s 1,410 participants were either misreported on the June 30, 2002, report
or their status could not be confirmed because the official participant files were
missing. One example of misreporting occurred when participants were
reported as served by virtue of being enrolled in the program even though they
did not receive any WtW services.

Recommendations

The following recommendations are provided to the Assistant Secretary for
Employment and Training:

   •   To address findings related to an inadequate financial management
       system, we recommend ETA require Florida officials to account for the
       $4,201,286 million in excess cash returned by SFWB, collect $162,059 in
       interest lost resulting from unauthorized cash drawdowns, resolve
       questioned contract costs totaling $2,186,404, and adjust financial
       management reports to correct the $5.5 million reporting error.
       Additionally, we recommend ETA require Florida to take steps necessary
       to ensure its subgrantees establish and implement effective internal
       controls over financial management systems involved in managing grant
       funds.

   •   To address unauthorized and unsupported in-kind contributions, we
       recommend ETA take steps to ensure Florida officials remove from their
       final match $1,857,217 in-kind contribution from SFWB (Region 23). The
       Assistant Secretary for ETA should also ensure that periodic monitoring of
       the actual match takes place through program reviews for any future
       program matches.



U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                     iii
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


     •   To address unreliable and inaccurate participant performance data, we
         recommend ETA conduct a comprehensive quality review and oversight
         of data entered into participant information systems to ensure placements
         are valid and that data is entered in accordance with program guidance.

SFWB Response SFWB has returned the $4.2 million that was unaccounted for
to AWI. In addition, SFWB officials contend that there was no loss of interest to
the U.S Treasury because excess funds drawn by the WtW program were offset
by amounts under drawn in other Federal programs. Concerning the allocation
of one-stop expenses of $2,186,404, SFWB officials assert that all WtW
participants were dually enrolled in both WtW and WT and that because they
utilized all available WT funds, all expenses incurred for these participants were
allowable WtW services. SFWB officials state that they have installed a new
accounting system that will address the internal control problems identified. As
recommended, AWI officials stated that they will not rely on the in-kind match
reported by SFWB. SFWB officials acknowledge that there were participant
reporting errors, although they explain that they made a conscious decision not
to terminate participants after 90 days as suggested by ETA.

OIG Conclusion SFWB has provided documentation showing that it returned
the $4.2 million in excess cash. During the audit resolution process, ETA should
verify that AWI officials have returned or reallocated the $4.2 million of WtW
excess cash returned by SFWB. Our interest computation on the excess cash was
based on bank balances and we continue to question the interest lost. We
continue to question the costs allocated through the WWW contracts because
distinct WtW services were not competitively bid, were not addressed in the
contracts and the allocation method was based on eligible participants rather
than services provided. During the audit resolution process, SFWB will need to
provide ETA with further details regarding the new accounting system and how
it will address the identified internal control deficiencies. To resolve and close
our recommendation regarding SFWB’s matching contributions, ETA needs to
provide documentation showing that AWI has removed the in-kind match
reported by SFWB.




                                  U.S. Department of Labor—Office of Inspector General
iv                                                        Report No: 04-04-002-03-386
U.S. Department of Labor                    Office of Inspector General
                                            Washington, DC. 20210




                        Assistant Inspector General’s Report

Emily S. DeRocco
Assistant Secretary for Employment
 and Training
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

We conducted a performance audit of the $19,836,352 Federally-funded WtW
Formula Grants provided to the South Florida Workforce Board, (SFWB) during
Program Years 1998 and 1999. SFWB is the largest of 24 designated regional
subrecipients authorized to manage WtW programs within the state of Florida.
SFWB was judgmentally selected for audit after reviewing and analyzing WtW
financial and participant reporting data as of March 31, 2002, submitted by 95 local
boards in ETA’s Southeast Region. The average job placement cost per participant
for the combined 95 local boards was $6,383. SFWB’s average was six times higher
at $39,409.

Our audit objective was to determine whether SFWB managed the Federally-funded
grant in accordance with WtW legislation, associated regulations, and Office of
Management and Budget (OMB) Circulars describing grantee obligations and
responsibilities. To accomplish this objective, we designed our audit tests to answer
the following three questions.

   •   Did SFWB adequately manage WtW formula grant funds?
   •   Did SFWB satisfy the state’s Federal matching requirement?
   •   Did SFWB comply with mandatory participant reporting requirements by
       submitting accurate and reliable performance reports?

Finding I

Inadequate Financial Management System Resulted in
Mismanagement of WtW Formula Grant Funds

As of June 30, 2002, SFWB’s cumulative WtW general ledger expenditures totaled
$7,922,622 but the cash drawdown by SFWB totaled $19,836,352, representing excess
cash of approximately $11.9 million. In August 2002, SFWB returned $8 million to
the state of Florida, of which AWI either returned $7.7 million to ETA or reduced

U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                      1
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


their subsequent drawdowns accordingly. However, approximately $4.2 million of
the excess cash remained unaccounted for, and, as a result, we question these costs.
After the conclusion of audit fieldwork, SFWB provided documentation that
supports the return of $4.2 million to the state. (See Finding 1a below.)
Furthermore, because this excess cash drawn down was not deposited into an
interest bearing account, the US Treasury lost $162,059 in interest. (See Finding 1b
below.)

As a result of tests of reported expenditures, we question contract costs of
$2,186,404. These costs could not be shown to benefit WtW participants and we
determined the contracts did not meet Federal bid and competition requirements.
(See Finding 1c below). Finally, we identified internal control weaknesses related to
the untimely preparation of financial statements, unlocated financial reports, grant
monies deposited into the wrong bank account, and inaccurate subsidiary ledger
entries. These weaknesses in internal controls contributed to a significant error
discovered in the area of financial reporting. The June 30, 2002, expenditure reports
used to track program costs, contained a $5.5 million error resulting in reported
expenditures of approximately $13.5 million compared to general ledger entries of
about $8 million. (See Finding 1d below.)


                 Finding 1a: SFWB violated 29 CFR 97.20 by drawing
                   down approximately $11.9 million from the grant
                             without allowable expenses



SFWB’s “cash-on-hand” exceeded expenditures by approximately $11.9 million.
Drawdowns totaling $19,836,352 as of June 30, 2002, were traced and compared to
general ledger1 total cumulative expenditures2 of $7,922,622. This represented
excess cash of approximately $11.9 million. In general, this occurred because SFWB
officials drew down WtW cash based on a flawed cost allocation plan. To better
understand this issue, the following paragraphs explain the SFWB board structure,
why the allocation plan was devised, why this plan was wrong, Florida’s rejection of
the SFWB allocation plan, and how the rejection led to financial transaction
adjustments of WtW funds. In addition, a discussion is provided regarding the $8
million returned to Florida, and questioned costs totaling $4.2 million.




1 The SFWB accounting system used a desktop check register to record expenditures into a manually prepared
general ledger.
2
  Expenditures represent disbursement and accrual transactions from September 30, 1999 through June 30,
2002.
                                          U.S. Department of Labor—Office of Inspector General
 2                                                                    Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


SFWB Structure. Florida legislation required local organizations, such as SFWB,
to combine existing board structures managing Federal grants into a single
entity. Accordingly, the Work and Gain Economic Self-Sufficiency (WAGES)
Coalition Board managing Health and Human Services Welfare Transition grants
and the Job Employment Program managing JTPA, Workforce Investment Act
(WIA) and WtW grants were merged into a single board. Even though these
grants had various requirements and stipulations, the new board tried to
develop a methodology to allocate program and administrative costs among the
different programs.

Why the Allocation Plan was devised. Board management developed a strategy
to allocate costs based on funds available from each Federal grant program. This
strategy enabled SFWB to account for all available funding without regard to the
type of grant and any accompanying restrictions or spending rules.

Why this Plan was wrong. Allocating costs to the WtW grant based on funds
availability ratios failed to take into account the cost of services actually provided
that benefit WtW participants. Therefore, the cost allocation plan used by SFWB
violated OMB Circular A-87 that states, “Indirect cost pools should be
distributed to benefited cost objectives on bases that will produce an equitable
result in consideration of relative benefits derived.” An equitable cost allocation
plan should be designed and implemented based on the respective benefits
received from the joint costs. Using funding availability, SFWB allocated to the
WtW grant a portion of the costs its subcontractors incurred operating One-Stop
centers throughout the region. A percentage of these operating costs were
charged to the WtW grant program without regard to the cost of services
provided to WtW participants.

Florida’s rejection of the SFWB Allocation Plan. The State of Florida’s Agency
for Workforce Innovations (AWI) did not approve SFWB’s original cost
allocation plan. Allocating costs based on the amount of funds received from
each funding stream was not allowable. Consequently, on February 28, 2002, the
region retroactively changed the plan.

How the rejection led to financial transaction adjustments of WtW funds.
AWI’s rejection of the cost allocation plan resulted in adjustments to SFWB’s
WtW program costs. After making adjusting journal entries to reflect the correct
costs, SFWB recognized expenditures in the amount of $7,922,622 for Program
Year (PY) 1998 and no expenditures for PY 1999 as of June 30, 2002.




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                         3
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


SFWB returned $8 million but questioned costs remain. In August 2002, SFWB
returned $8 million to the State of Florida. We were able to determine that the
State of Florida either returned $7.7 million of this amount to ETA or reduced
their statewide drawdown. In our opinion, this action occurred because the
rejection of SFWB’s cost allocation process disclosed to management that
approximately $11.9 million in excess and unauthorized WtW cash was on-hand.
With the assistance of ETA officials, we traced the funds returned by SFWB and
concluded that the State of Florida had either returned most of the monies to the
Federal Government or reduced their statewide drawdown (offset). This
analysis enabled us to account for an estimated $7.7 million. However, the actual
return should have been the total excess cash drawn of $11.9 million . We
question the $4.2 million difference between the excess cash drawn down and the
$7.7 million returned. After we notified SFWB of this finding, SFWB provided
documentation to support a return of $4,226,850 to the State of Florida out of
WtW grant funds. However, additional review is necessary to ensure that any
subsequent drawdowns were properly accounted for.

                Finding 1b: SFWB violated 29 CFR 95.22(k) by
              depositing grant monies into a non-interest bearing
                                bank account


As discussed above, SFWB made excess drawdowns of WtW funds totaling
approximately $11.9 million. These drawdowns cost the United States Treasury
$162,059 in interest. SFWB deposited the advanced cash in non-interest bearing
accounts. This action violated the 29 CFR 95.22(k), that specifies recipients will
maintain advances of Federal funds in interest bearing accounts. This grant
requirement was discussed with SFWB officials. These officials stated that as of
December 2002, all Federal funds are maintained in an interest bearing bank
account.

            Finding 1c: SFWB did not meet Federal guidelines to
            support/allow contract costs of over
                                  $2 million.


Audit tests of reported expenditures disclosed contract costs were not
identifiable to WtW participants and the contracts did not meet Federal bid and
competition requirements. From the period July 1, 2001 to June 30, 2002, WtW
was allocated program (contract) costs totaling $2,186,404. We question these
costs for two reasons: (1) there is no evidence that eligible WtW participants


                                 U.S. Department of Labor—Office of Inspector General
4                                                       Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


received allowable services and (2) mandatory procurement requirements set
forth in the CFR were not met.

After the passage of WIA in 2000, SFWB competitively procured contractors to
operate One-Stop centers. Contractors were paid from WIA and WT funds. A
separate competitive procurement process was initiated to administer SFWB’s
Publicly Funded Jobs Program with the intent to implement WtW using formula
grant funds. In a memorandum dated January 24, 2001, the Executive Director of
SFWB noted that very little WtW funds had been spent and recommended
actions to use more of this available funding stream. As a result, on July 1, 2001,
SFWB established a consolidated contracts environment, also referred to as
“WWW.” In this environment, the WtW funding stream was merged with the
preexisting WIA and WT contracts to operate the One-Stop Centers.

The SFWB does not address directly whether participants were receiving WTW
services but rather contends that they enrolled eligible participants in the WT
and WtW programs simultaneously and that WtW funds were used only after
WT funds had been exhausted. Once WtW funds were combined under the
WWW contracts, we were unable to determine whether WtW participants were
receiving job retention and support services as provided by the WtW regulations,
other than $1,406 in supportive services.

There is no evidence that eligible WtW participants received allowable
services. After reviewing SFWB’s consolidated contracts and participant files,
we were unable to identify WtW services provided to individuals. Since all the
funds in question were used to pay different subcontractors, we contacted 25
subcontractors and determined how many participants they served and how
these services were tracked. Our results are summarized below.

   •   Ten subcontractors stated that they did not have any WtW participants
       under the WWW contracts.

   •   Thirteen subcontractors reported “dual” participant enrollments,
       individuals enrolled in both WT and WtW. Eleven of these subcontractors
       did not provide participants any distinct WtW services, as required for
       enrollment in WtW. The two remaining subcontractors provided
       supportive services to WtW participants totaling $1,406. These costs were
       directly charged to the WtW program.

   •   Two subcontractors were no longer in business. We were, therefore,
       unable to obtain a count of any WtW participants served.




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                       5
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


Billed services should be directly allocated to a program activity or service and
reported for the program that derives the benefit. According to the regulations
cited at 20 CFR 645.425 (b)(4), SFWB is responsible for ensuring “that funds are
expended on eligible recipients and on allowable activities. . . .” Program costs at
a subrecipient level should be directly allocated to an activity or service. With
the exception of the $1,406 expended on supportive services to WtW participants,
SFWB has not met the intent or rule of the CFR. We concluded subcontractors
did not identify WtW recipients and as a result, it is unknown whether funds
were expended on allowable WtW activities.

Mandatory procurement requirements set forth in the CFR were not met. On
July 1, 2001, SFWB merged the WtW funding stream with the pre-existing WIA
and WT contracts to operate One-Stop Centers in a consolidated contracts
environment (WWW). However, SFWB did not recompete or even modify their
existing contracts. In addition, the WWW contracts did not address three critical
WtW-specific elements: performance goals, a budget, and program deliverables.
The newly created environment used WtW funds to pay for an allocated portion
of WWW contracts, but did not distinguish WtW as a separate program.

Based on the SFWB Executive Director’s January 2001 memorandum, we
concluded that the competitive procurement process called for in the CFR was
intentionally circumvented. His January 2001 memorandum said:

       For . . . the WtW Publicly Funded Jobs Program to be accessed
       through all one-stops with all Service Providers inside one-stops able
       to draw on these funds and given significant enough incentives to
       insure that they would be widely used, we would need to have a
       legal means to have a WtW fund pool accessible to all of those
       Service Providers (without their competing for them). . . . The issue
       here is that they competed under a WIA/Welfare Transition funding
       procurement process and we are trying to use the outcomes of that
       process to provide access to a different funding stream (WtW).

Procurement by noncompetitive means can be allowed when any one of the
following four rules pursuant to 29 CFR 97.36(d)(4) are met: an item is available
from only one source; public emergency; authorization of noncompetitive
proposals; or after the solicitation, competition is considered inadequate.
Additionally a cost analysis is required. SFWB did not meet the aforementioned
guidelines.

In conclusion, we question the $2,186,404 in contract costs charged to the WtW
program because these costs could not be associated to WtW participants and we

                                 U.S. Department of Labor—Office of Inspector General
6                                                       Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


determined the contracts did not meet Federal bid and competition
requirements.

               Finding 1d: Noted Weaknesses in SFWB’s System of
                               Internal Controls



Tests of SFWB’s financial records disclosed four problems. Specifically, financial
statements were not closed and prepared in a timely manner, prior period
financial reports sent to Florida were missing, formula grant monies were
deposited into the wrong accounts, and some subsidiary ledger entries were
wrong. These weaknesses in internal controls contributed to a significant error
discovered in the area of financial reporting. The June 30, 2002, expenditure
reports used to track program costs, contained a $5.5 million error resulting in
reported expenditures of approximately $13.5 million compared to general
ledger entries of about $8 million. Details related to these internal control
weaknesses are presented below.

Financial statements were not closed and prepared in a timely manner. SFWB
had not prepared its FY 2002 financial statements nine months after the FY ended
on June 30, 2002. According to 20 CFR 645.240(c), financial reports are due no
later than 45 days after the end of each quarter. SFWB did not have an
automated accounting system to manage WtW Federal funds. Instead, various
desktop computer programs were used to store financial transactions. SFWB
was able to manually prepare a trial balance, but could not prepare a year-end
consolidated general ledger. The lack of an automated accounting system to
process transactions significantly contributed to delays in preparing the FY 2002
financial statements. Moreover, SFWB’s reliance on a manual accounting system
also resulted in financial record errors discussed later in this report.

20 CFR 645.425(a)(14) specifies that the state is responsible for establishing
internal reporting requirements to ensure Federal reports are accurate, complete,
and submitted on a timely basis. This regulation implies that records should
adequately identify the funding source and its application for financially assisted
activities. The lack of adequate records indicates a weakness of internal
accounting control regarding assurances of proper accountability for all grant
funds, and the controls for adequately managing the WtW program.

Prior period financial reports sent to Florida were missing. We were unable to
reconcile expenditures reported on the SFWB expenditure reports for all quarters
prior to the quarter ended March 31, 2002. These expenditure reports were


U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                       7
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


deleted from the State Management Information System, (MIS) and no hard copy
reports were available. Section 20 CFR 97.42(b)(1) specifies that all financial and
programmatic records, supporting documents, statistical records, and other
records of grantees or subgrantees that are considered pertinent to a program
regulation or grant agreement, must be retained for three years.

Historical records provide management with the tools to compare variances
between reported time periods. The lack of historical reports indicates a
weakness in internal managerial controls in the areas of budgeting and proper
custody of records. It also indicates lack of compliance with 20 CFR 645(a)(14)
related to fiscal control and accounting procedures of the State, as well as its sub-
grantees. Accounting procedures should be sufficient to permit preparation of
reports and the tracing of funds to ensure compliance with applicable statutes.

Formula grant monies were deposited into the wrong account. The WtW cash
balance was understated on June 30, 2002, because $292,487 of WtW funds was
erroneously deposited into the Welfare Transition account. Our analysis of
$16,526,298 drawn down between July 2001 and June 2002 disclosed only
$16,223,811 was deposited into the WtW account. The missing funds were traced
to a drawdown on February 13, 2002, in the amount of $2,502,221, of which only
$2,209,734 was credited to the WtW account.

The recipient must be able to account for receipt, obligation and expenditure of
the fund, as indicated in 29 CFR 95.22(i)(1). Failure to maintain accurate cash
records can result in unauthorized expenditures and in poor management
decisions regarding requests for cash drawdowns.

After we informed management of this problem, corrective action was taken to
return the $292,487 to the WtW bank account.

Subsidiary ledger entries were wrong. Our review of 379 disbursements3
totaling $19,121,476 disclosed 6 subsidiary ledger entries were wrong. The net
effect of these errors totaled $62,385; however, the incorrectly posted entries
totaled $159,565. SFWB did not detect disbursement errors because it did not use
a periodic reconciliation process to identify and correct mistakes. Details of the
errors we detected using a reconciliation process follow:

              Two advance4 payments made to ACS/Lockheed in the amounts of
              $40,525 and $19,403 were not recorded in the subsidiary ledger.


3   The disbursements covered the period January 2002 to March 2002.
4   Service providers were paid on an advance system based on biweekly cash requests.

                                        U.S. Department of Labor—Office of Inspector General
8                                                              Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


           Therefore, ACS/Lockheed’s cash advance balance in the subsidiary
           ledger was understated by $59,928.

           An advance payment in the amount of $24,295 issued to Sullivan &
           Cogliano was not recorded in their subsidiary ledger account.
           However, $24,295 was incorrectly recorded in the ACS/Lockheed
           account and $24,295 was also incorrectly recorded in the New
           Alternatives’ subsidiary ledger account. The net effect was an
           overstatement of cash advances totaling $24,295 and misstatements in
           three subsidiary ledgers totaling $72,885.

           An intended advance payment made to TTI in the amount of $26,752
           was not recorded in their subsidiary ledger account. However, when
           the check was voided, the proposed advanced cash amount was
           reduced in the subsidiary ledger. By only posting the voided check
           and not the original issuance, TTI’s subsidiary ledger was understated
           by $26,752.

SFWB’s expenditure reports contained a $5.5 million error. These weaknesses
in internal controls contributed to a significant error discovered in the area of
financial reporting. The June 30, 2002, expenditure reports used to track
program costs, contained a $5.5 million error resulting in reported expenditures
of approximately $13.5 million compared to general ledger entries of about $8
million.

As of June 30, 2002, WtW expenditures identified in the general ledger totaled
$7,922,622, but the amount reported to the State of Florida was $13,418,322,
representing an overstatement5 of program expenditures totaling $5,495,700. The
misreporting occurred because financial adjustments were made after June 30,
2002, revising WtW charges downward by $5,495,700. However, SFWB officials
did not amend their previously reported expenditures. The adjustments were
required because SFWB’s original cost allocation plan, as previously discussed,
was rejected. After Florida informed SFWB officials of the rejection, a portion of
the previous charges that should not have been borne by WtW were adjusted on
the general ledger but not on the expenditure reports.

Florida combines program expenditure reports for all state workforce boards,
such as SFWB, and prepares a Financial Status Report (FSR) each quarter. ETA

5The audit was designed to examine all WtW grants provided to SFWB. They received grants in
PY 1998 and 1999. The overstatements of expenses were $3,212,884 and $2,282,816 for PY 1998
and PY 1999 respectively, totaling $5,495,700.



U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                               9
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


relies upon reported financial data to monitor the financial position of WtW
grant recipients. According to 20 CFR Part 645.240(c), “Each grant recipient must
submit financial reports to the Department (ETA). Reported expenditures and
program income must be on the accrual basis of accounting and cumulative by
fiscal year of appropriation.” Without accurate information reported on the FSR,
ETA’s ability to monitor active grants is inhibited.

Conclusion

SFWB did not fulfill its stewardship responsibilities necessary to manage Federal
funds provided by WtW legislation. Specifically, officials drew down cash
without required expenses. Additionally, SFWB implemented a plan to acquire
Federal funds that did not comply with the CFR requirements to establish and
maintain funds accountability using a sound financial management system. Of
the approximately $19.8 million in WtW funds drawn down by SFWB, we
question financial transactions totaling $6.6 million.

Recommendations

We recommend that the Assistant Secretary for Employment and Training take
the following actions:

Recommendation 1. Ensure Florida officials have taken steps to return or
reallocate the $4.2 million of WtW excess cash returned by SFWB.

Recommendation 2. Ensure that any additional WtW funds that may have been
spent by SFWB were expended in accordance with legislative intent and that any
funds allocated to joint costs were allocated in accordance with an approved
allocation plan.

Recommendation 3. Collect $162,059 in accrued interest from the grantee and
deposit these funds into the U.S. Treasury.

Recommendation 4. Disallow and recover questioned costs of $2,186,404
charged to the WtW program because these costs could not be associated to WtW
participants and SFWB’s contracts did not meet Federal bid and competition
requirements.

Recommendation 5. Require Florida officials to adjust future FSRs to reflect the
$5.5 million overstatement reported on their June 30, 2002, Financial Status
Report.



                                U.S. Department of Labor—Office of Inspector General
10                                                      Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


Recommendation 6. Require Florida officials to take steps necessary to ensure
its subgrantees establish and implement effective internal controls over financial
management systems involved in managing grant funds.

SFWB Response

During the August 26, 2004 meeting with OIG, SFWB officials produced copies of
check numbers 015303 dated May 5, 2001, and 012034 dated October 30, 2003,
documenting the return of the questioned $4.2 million to the state of Florida.

Although SFWB agreed that interest was not earned on WtW funds prior to
December 2002, they believe that there was no net effect to the Federal Treasury.
As the audit report points out, due to discrepancies in the way indirect costs
were allocated to WtW, more WtW cash was drawn than should have been.
However, SFWB contends that other Federal grant programs were under drawn,
thereby allowing this cash to remain in the Treasury to earn interest, which
should have offset the interest lost on WtW funds. SFWB has requested that the
OIG consider this compensating factor and eliminate the issue of interest
repayment.

SFWB’s position concerning WtW services is that WtW participants and Welfare
Transition (“WT”) participants were dually enrolled as allowed by Federal
Regulations (20CFR § 645.220). The services allowable under the WT program
were also allowable under WtW. The One-Stop system had gone through a
competitive contracting process for the WT and WIA programs. The WtW
program was brought into the service array – WIA, WT and WtW – to provide a
full integration of all programs. SFWB stated that, in compliance with applicable
regulations, WT dollars were utilized first to provide services to the dually
enrolled participants. The total amount spent on services for the dually enrolled
population exceeded the annual WT allocation SFWB was able to draw upon. As
previously stated in its response dated August 13, 2003, SFWB records reflect
that, except for the Florida Keys, all one-stop locations had active WtW
participants. Neither Miami Dade Community College (MDCC) nor Miami
Dade County Public Schools (MDCPS) were one-stop operators. They
functioned as resource centers assisting participants who were in the caseloads of
the one-stops and who were receiving training on their campuses. SFWB urges
the OIG to reconsider the use of these issues as basis for questioning all WtW
costs for FYs 2001 and 2002. SFWB does not believe that the weaknesses cited by
the OIG rise to the level that justifies such a conclusion.

SFWB officials also stated that, prior to the implementation of the Micro
Information Products (MIP) accounting system on July 1, 2002, SFWB did not


U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                     11
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


have an effective automated accounting system. SFWB asserts that the internal
control weaknesses that are cited have been addressed. The incorrect financial
reporting was addressed during SFWB’s annual audit and the accounting
records were corrected.

OIG Conclusion

The OIG has received documentation supporting SFWB’s contention that
$4,226,850 was returned to the State of Florida after our fieldwork concluded.
We continue to classify those costs as questioned. During the audit resolution
process, ETA should ensure Florida officials have taken steps to return or
reallocate the $4.2 million of WtW excess cash returned by SFWB.

SFWB contends that although no interest was earned on the excess cash prior to
2002, the net effect was no loss of interest to the Federal Treasury because other
federal programs were under drawn. However, our computations were based
on bank statements showing excess bank balances for the WtW program and
consolidated bank accounts. Our recommendation is unchanged.

SFWB also contends that WtW participants were dually enrolled and that WtW
funds were only used after WT funds were exhausted. In August 2003,
correspondence submitted by SFWB indicates WtW funds were not used until
Welfare Transition Funds were exhausted and that services allowable under WT
are also allowable under WtW. However, WtW funds were drawn throughout
PY 2001 prior to the WT funds being exhausted.

Further, the SFWB does not address directly whether participants were receiving
WTW services but rather contends that they enrolled eligible participants in the
Welfare Transition and WtW programs simultaneously and that WtW funds
were used only after Welfare Transition funds had been exhausted. Once WtW
funds were combined under the WWW contracts, we were unable to satisfy
whether WtW participants were receiving job retention and support services as
provided by the WtW regulations, other than $1,406 in supportive services.

In addition, the allocation method used to support the $2,186,404 in WtW
charges under the WWW contracts was based on the number of eligible
participants rather than the number of participants actually served.
Consequently, even if all the one-stop costs incurred were allowable WtW
activities, the allocation should be based on WtW identified participants that
were provided allowable WtW services, in accordance with 20 CFR 645.220.




                                 U.S. Department of Labor—Office of Inspector General
12                                                       Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


SFWB also contends that since participants were dually enrolled, the One-Stop
system which had gone through a competitive process for the WT and WIA
programs had the WtW program integrated in the service array for full
integration of all programs. Our position continues to be that the WtW has
unique requirements. By attaching the funding stream onto existing contracts
without specifying the WtW services required, SFWB did not ensure the unique
features of the WtW program were considered by the service providers.
Recommendation number 4 remains unchanged.

Finally, SFWB asserts that the implementation of the Micro Information Products
(MIP) accounting system on July 1, 2002, has addressed the internal control
weaknesses in our report. SFWB also states that the incorrect financial reporting
has been addressed and accounting records corrected. SFWB needs to provide
ETA with documentation to support these assertions during the audit resolution
process.




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                    13
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


Finding II

Unauthorized and Unsupported In-kind Contributions Resulted in
Noncompliance with Florida’s Federal Matching Requirement

For expenditures to qualify as matching funds, the contributions must meet the
requirements of both 29 CFR 97.24(b)(6) and 20 CFR 645.300(c)(7). The
regulations provide that cost and third party in-kind contributions counting
towards satisfying a cost sharing or matching requirement must be allowable
and verifiable. State records show SFWB committed to contribute in-kind
services valued at $1,857,217 as a portion of the overall Florida match
requirement.6 However, SFWB’s in-kind contribution does not meet the intent of
the CFR for two reasons. First, $855,091 of the match lacked propriety because
SFWB’s estimated in-kind services were not allowable. Second, supporting
documents were not retained to substantiate that the remaining $1,002,126 of the
match occurred.

Florida officials also recognized the Federal requirement for matches to be
supported. As a supplement to Florida’s request for a formula grant extension,
Florida submitted a letter to ETA dated July 3, 2001, detailing the State’s
understanding of the principles required in the WtW match process. The first
principle specified that the match be verifiable and traceable. The services SFWB
estimated to contribute toward the in-kind match requirement were the value of
bus pass discounts, reduced community college tuition, supervisory salaries and
benefits incurred by nonprofit and governmental entities, and the cost to
produce payroll checks for participants. Tests conducted of SFWB’s estimates
along with our analysis are discussed below.

Bus pass discounts from the Miami-Dade Transit Agency accounted for an
estimated $90,000. We could not substantiate the appropriateness of any of this
reported in-kind contribution. The amount was computed under the assumption
250 WtW participants would each need 12 monthly bus passes, discounted by
$30 per pass. However, the actual number of discounted bus passes used by
WtW participants was not monitored or reported.

Reduced tuition at Dade County public school and Miami Dade community
college accounted for an estimated $497,767 in-kind contribution. We could not
substantiate the appropriateness of this reported in-kind contribution. SFWB

6
 The overall Florida match was originally estimated at $49 million, of which approximately $8.6 million
consisted of in-kind contributions. Our audit tests only address the SFWB portion of the match in excess of
$1.8 million. The SFWB match consisted totally of in-kind contributions identified between January 2001
and December 2001.

                                          U.S. Department of Labor—Office of Inspector General
14                                                                Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


officials estimated 232 participants would attend classes at a reduced tuition.
The tuition charged to WtW participants was estimated to average $2,146 less per
student than the amount charged to the general public, but the tuition discount
was not supported by a method of the computation or other supporting
documentation. The actual number of WtW participants enrolled as students at
Miami Dade Community College was not provided.

Supervisory salaries and benefits incurred by nonprofit and governmental
entities that employed WtW participants accounted for an estimated $1,249,950
in-kind contribution. We could not substantiate the appropriateness of this
reported in-kind contribution. The estimate was based on 250 participants
requiring supervision for 5 hours per week, 52 weeks per year and using a
supervisory salary and fringe benefit rate of $19.23 per hour. This estimate had
three different problems.

First, 29 CFR 97.24(c)(2) requires the services of an employee (in the employee’s
normal line of work) furnished free of charge to be valued at the employee’s
regular rate of pay exclusive of the employee’s fringe benefits and overhead
costs. Using an adjusted hourly rate of $13.65 per hour7 to eliminate fringe
benefits, $362,486 should not have been submitted as an in-kind match.

Second, SFWB estimated participants would receive 5 hours supervision per
week, 52 weeks a year. However, there are two faulty assumptions with the
estimate. First, each participant received supervision for 3 days per week; the
remaining 2 days participants received classroom training. Since the SFWB
estimated that 1 hour of supervision would be required each day, its estimate
was overstated for the days participants were in the classroom. Second, a
participant can only be in the program for 39 weeks. Since SFWB developed its
estimate using 52 weeks per participant, this estimate was also overstated. In
total,8 these two factors resulted in SFWB’s estimate overstating the in-kind
match by $488,105.

Third, documentation to support the actual number of WtW participants that
received supervision and the hours of supervision received was not provided.
As a result, we could not substantiate the remainder of this reported in-kind
contribution totaling $399,359.

7 The percentage of fringe benefits and overhead costs obtained from the Department of Labor’s
Bureau of Labor Statistics web site was 29 percent. The adjusted salary without the fringe
benefits and overhead was $19.23 times 71 percent, which amounted to $13.6533, the amount
used in subsequent calculations.
8 The calculation of $488,105 takes the original SFWB estimate of $1,249,950 removes the

unauthorized fringe benefits and overhead costs of $362,486, and further reduces the estimate by
$399,359 to correct the overstatement of weeks (from 52 to 39) and hours (from 5 to 3).


U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                                   15
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



The cost to produce payroll checks for participants was estimated at a $19,500 in-
kind contribution. SFWB estimated 250 WtW participants would receive 26
biweekly checks at a cost of $3 per check. Although we agree participants did
receive checks, and that SFWB did contribute an in-kind match, the maximum
period a participant would be in the program is 39 weeks. This results in an
overstatement9 of their estimate by $4,500. However, because SFWB officials did
not provide traceable and verifiable documentation of the in-kind costs incurred,
we also question the remaining $15,000 contribution.

Conclusion

SFWB’s estimated in-kind contribution to meet the State’s Federal matching
requirement does not meet the intent of the CFR. Specifically, $855,091 of
SFWB’s estimate is not allowable. The remaining $1,002,126 does not meet the
code’s verifiable and traceable requirement because supporting documents were
not retained to substantiate that the match occurred. As a result, we question
$1,857,217 in costs. In response to this issue, SFWB did not initially provide
additional documentation to support the in-kind contribution. However,
subsequent to the end of audit fieldwork, AWI determined that the State overall
has met the match commitment and that the SFWB committed match does not
need to be considered in covering the statewide match.

Recommendations

We recommend that the Assistant Secretary for Employment and Training take
the following actions:

Recommendation 7. Take steps to ensure Florida officials have removed from
their final match submission the unallowable $1,857,217 in-kind contribution
from SFWB (Region 23).

Recommendation 8. Ensure that periodic monitoring of the actual match takes
place through program reviews for any future program matches. Specifically,
require adequate documentation be maintained so that the match is verifiable
and ensure that the match is allowable.




9We computed the overstatement by taking the 26 biweekly pay periods in the original estimate
and reducing it to 20 pay periods.

                                     U.S. Department of Labor—Office of Inspector General
16                                                           Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant

SFWB Response

SFWB maintains that it did meet its match requirement through discounted bus
passes to eligible WtW participants, reduced tuition at the local community
college, supervisory staff time costs to supervise WtW participants who were
employed, and the costs associated with processing WtW participant payrolls.
SFWB acknowledges that there were record keeping issues that may impact the
allowability of these items as matching contributions subsequent to their being
reported.

As stated in the finding, the Agency for Workforce Innovation documented that
the state had ample match expenses to offset any SFWB match shortfall due to
poor record keeping.

OIG Conclusion

SFWB indicates AWI has removed the $1,857,217 used to help satisfy the State’s
federal matching requirement from its submission as we had recommended.
This action is consistent with our recommendation; however, the action should
be reviewed and documented by ETA during the audit resolution process.




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                   17
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


     Finding III

     Participant Performance Data Reported to Florida
     and to ETA Were Unreliable and Inaccurate

     Using statistical estimation techniques, we project 1,173 of the program’s
     1,410 participants were either misreported on the June 30, 2002 report or their
     status could not be confirmed because the participants’ official files were
     missing.10 We estimate the number of missing or misreported files to be
     between 1,005 and 1,341 at a 90 percent confidence level. The magnitude of
     these errors can be seen in the pie chart below that uses a mid-point
     projection.


                              Projection of Participant Reporting
                                             Errors
                                       (Universe = 1,410)

                                                                                 Reported participant
                                                                                 data were correct.
                                                                     237
Reported
participant data                 1,062
were incorrect due                                                  111
to one or more                                                               Reported participant data
reporting errors.                                                            not verifiable due to
                                                                             missing files.




State formula grant recipients must report participant data in accordance with
instructions issued by the ETA. Reported data must be submitted as a
component of the quarterly Federal Participant Summary Report (FPSR).
Information in each quarterly report includes number of participants served,
number terminated from the program, how many participants were placed in
both subsidized and unsubsidized employment, how many participants retained
a job for 6 months, and how many had received increased earnings from their
jobs.

10
  This projection is based on a total 89 randomly selected files. We statistically selected 82 files. We
then added seven randomly selected replacement files after seven of the originally selected files
could not be located.

                                          U.S. Department of Labor—Office of Inspector General
18                                                                Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



We randomly selected 89 participants for testing. We then validated their
reported status on SFWB’s FPSR to supporting documentation in participants’
official files. In total, we identified 101 instances11 where the reported
information on FPSR line items 24 through 29 was incorrect. Data from the FPSR
are combined with data from other Workforce Boards to prepare a summary of
participant data as part of the FSR. A detailed analysis by FPSR line items
follows, as well as a discussion regarding missing participant files. Additional
audit tests confirmed that TANF participants had received mandatory in-depth
assessments and were eligible to receive WtW services.

Item 24 - Total Participants Served

Thirty-four individuals were incorrectly reported as served. Using statistical
estimation techniques with a 90 percent confidence level, we estimate the
June 30, 2002, FPSR incorrectly reported between 422 and 655 individuals as
served. Our review of the official files disclosed that these individuals were
WtW eligible and received WIA or WT services, but not WtW services.

In all 34 instances, SFWB reported individuals that were eligible to receive WtW
services as “Participants Served” on Item 24 even though no WtW services were
received12. ETA’s reporting guidelines prohibit this practice and state, “an
individual is classified as a ‘participant served’ when the participant receives one
or more of the WtW allowable services.” The reporting guidelines specifically
state that “Intake, initial assessment, and eligibility determination do NOT
constitute ‘participant served’ status for an individual.”

Item 25 - Total Participants Terminated

Twenty-one participants met the ETA guideline to be reported as terminated, but
were omitted from the FPSR. Using statistical estimation techniques with a 90
percent confidence level, we estimate between 231 and 435 participants should
have been, but were not, reported as terminated on the June 30, 2002, FPSR.

SFWB stated that these 21 individuals were “purposely not terminated” because
they had not achieved economic self-sufficiency and were still eligible to receive
WtW support services. However, ETA’s suggested guideline states that
participants should be reported as terminated if no contact has been made with
the individual in 90 days. All 21 of the participants meet this criterion. Eleven of


11   Some participants were reported incorrectly on more than one FPSR line item.
12
     SFWB established this practice under the consolidated contract environment beginning July 1, 2001.



U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                                               19
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


these 21 participants were terminated in the following quarterly FPSR on
September 30, 2002. The remaining 10 participants received services under the
Publicly Funded Jobs Program strategy that was discontinued 1 year earlier on
June 30, 2001.

Item 26 - Placed in Unsubsidized Employment

Ten participants were either incorrectly reported on or omitted from Item 26,
Placed in Unsubsidized Employment. Five participants were shown as placed;
however, there was no supporting documentation to substantiate unsubsidized
placements. The remaining five participants had documentation supporting an
unsubsidized placement, yet those individuals were not reported on the FPSR.

Item 27 - Employed in Unsubsidized Employment When Entering WtW

Two participants were employed in unsubsidized employment when entering
WtW; however, neither was reported. To illustrate, one participant file contained
case manager notes stating “cannot claim placement due to: The job started
before the program start date.” In both instances the participants should have
been reported on Item 27, but were not.

Item 28 - Placed in Subsidized Employment

Twenty-eight participants were incorrectly reported as placed in subsidized
employment. Using statistical estimation techniques with a 90 percent
confidence level, we estimate between 333 and 556 participants were reported on
Item 28 in error.

According to ETA’s Instructions for Reporting Welfare to Work Formula Grants
Financial and Participant Data, all WtW participants should be included on line
item 28 who “are placed in subsidized jobs for which the wage subsidy is less
than 100% of the participant’s total income.”

The aforementioned 28 participants each received 100 percent of their wages
from WtW. Their activities at government agencies and nonprofit organizations
should have been considered training activities because participant wages were
totally funded by WtW. Therefore, none of these 28 participants should have
been reported on Item 28, Placed in Subsidized Employment.

Item 29 - Retained Six Months (two quarters) in Unsubsidized Employment

Six participants were incorrectly reported on or omitted from Item 29, Retained 6
Months (two quarters) in Unsubsidized Employment. Two participants were
                                U.S. Department of Labor—Office of Inspector General
20                                                      Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


reported as retained but had not met the two quarters job retention test. The
remaining four participants met the reporting requirement for unsubsidized
employment but were not entered13 on the SFWB FPSR.

Official Participant Files Were Missing

Seven of the original 82 participant files were missing and required replacement
selection. According to SFWB, “The service providers holding these files were
given multiple requests for the files, but failed to comply.” The majority of the
files were from the City of Miami, a provider whose contract was terminated.
Based on the unavailability of these 7 participant files, it is estimated 111 are
missing from a universe of 1,410. SFWB is in violation of 29 CFR 97.42, which
specifies that all records pertinent to an award must be retained for 3 years from
the date of the final expenditure report.

Conclusion

SFWB’s participant reporting did not comply with ETA’s reporting guidelines.
Improved validity of program data must be addressed. Performance driven
requirements demand accurate and complete program data. Reliable data are
also necessary to measure the program’s outcomes and to assist program officials
and Congress in setting the direction and emphasis of employment and training
programs. Care should be taken when reporting results of participants included
in multiple programs such as TANF and WtW to ensure reports strictly adhere
with reporting guidelines and duplicate counting is properly disclosed. ETA did
not conduct monitoring visits of the WtW program at SFWB. AWI had
conducted two monitoring visits as of our cutoff date of June 30, 2002, and
identified significant problems with participant files. Corrective action taken
was not adequate to alleviate the problems prior to our audit.

Recommendation

We recommend that the Assistant Secretary for Employment and Training take
the following action:

Recommendation 9. Require ETA staff to complete periodic comprehensive
quality review and oversight of data entered into participant information
systems to ensure placements are valid and that data are entered in accordance

13The information reported of Item 29 is provided by the State of Florida (to Region 23) using
employment data from quarterly Unemployment Insurance (UI) reports. Our tests were not
designed to assess Florida UI operations, and consequently do address how these errors
occurred.



U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                                      21
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


with program guidance and are accurate and complete. The reviews should be
completed at the data point-of-entry, as well as at entities responsible for
consolidating the information.

SFWB Response

SFWB acknowledges that seven of 82 participant files that were requested from
contracted service providers could not be produced. The majority of the missing
files were from one service provider, the City of Miami, who received multiple
requests from SFWB to produce the files. At the time of the request, the City of
Miami was no longer a service provider for SFWB and may not have given the
requests sufficient priority. SFWB does not agree that the number of files the
City of Miami failed to produce should be extrapolated to the universe because
these results are an exception from our normal experience with our service
providers.

The 34 participants identified as not having received WtW services were in fact
dually enrolled and provided services.

The 21 individuals with no services for over 90 days were purposely not
terminated due to our understanding that they could receive support services,
placement assistance, etc as they had not achieved economic sufficiency. It was
not our interpretation of ETA’s suggested guidelines that these participants had
to be terminated after 90 days since they were eligible for continued services.

SFWB acknowledges that clerical errors were made in reporting participant data.

OIG Conclusion

Because our sample was randomly selected, we believe it is appropriate to
project the results of missing files over the universe. We believe we have
adequately disclosed that most the files were from one provider.

Concerning the participants incorrectly reported as served, the OIG recognizes a
distinction between enrolling participants and serving participants. ETA’s
reporting guidelines state, “an individual is classified as a ‘participant served’
when the participant receives one or more of the WtW allowable services.” The
reporting guidelines specifically state that “Intake, initial assessment, and
eligibility determination do NOT constitute ‘participant served’ status for an
individual.”




                                 U.S. Department of Labor—Office of Inspector General
22                                                       Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


The OIG acknowledges SFWB decision not to terminate participants after 90 days
because the 90 day criteria was “suggested” rather than “required”.




Elliot P. Lewis
May 13, 2004




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                 23
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




          <THIS PAGE INTENTIONALLY LEFT BLANK>




                             U.S. Department of Labor—Office of Inspector General
24                                                   Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




EXHIBIT




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                              25
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




          <THIS PAGE INTENTIONALLY LEFT BLANK>




                             U.S. Department of Labor—Office of Inspector General
26                                                   Report No: 04-04-002-03-386
       Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


                                                                                            EXHIBIT A

                                    SCHEDULE OF QUESTIONED COSTS


                                        DESCRIPTION                                         AMOUNT


Excess Cash on Hand as of July, 28, 2003, reference page 6                                   $4,201,286

29 CFR 95.22(b)(2)

Interest Income Lost Due to Excess Cash Balances, reference page 6                                162,059

29 CFR 95.22(k)

Contract Costs Not Identifiable With WtW Participants, reference page 6                       2,186,404

20 CFR 645.425(b)(4)

Unsupported In-Kind Match , reference page 13

29 CFR 97.24(b)(6) and 20 CFR 645.300(c)(7)              Not Verifiable        $1,002,126
29 CFR 97.24(c)(2) and 20 CFR 645.300(d)(2)              Fringe Benefits          362,486
Contract Violation – Excess number of hours              Supervisory Hours        488,105
Contract Violation – Excess number of weeks              Payroll Processing         4,500
                                                                                              1,857,217


                                                                TOTAL QUESTIONED COSTS       $8,406,966




       U.S. Department of Labor-Office of Inspector General
       Report No: 04-04-002-03-386                                                           27
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




          <THIS PAGE INTENTIONALLY LEFT BLANK>




                             U.S. Department of Labor—Office of Inspector General
28                                                   Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




APPENDICES




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                              29
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




          <THIS PAGE INTENTIONALLY LEFT BLANK>




                             U.S. Department of Labor—Office of Inspector General
30                                                   Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


                                                                                         Appendix A



BACKGROUND

Welfare-to-Work (WtW) legislation passed in August 1997, authorized the
Secretary of Labor to provide $3 billion in WtW grants to states and local
communities. 14 These grants are designed to target welfare recipients with the
least skills, education, employment experience and those who live in high
poverty areas. In fact, WtW is specifically designed to supplement the
Temporary Assistance for Needy Families (TANF) program managed by the
Department of Health and Human Services. WtW funding strives to provide
transitional assistance by helping hard-to-employ TANF welfare recipients and
eligible noncustodial parents find unsubsidized jobs and achieve economic self-
sufficiency.

To receive WtW formula grant funds, a state submits a plan to administer a WtW
program. State requests define the targeted population they plan to help, and list
each regional location within their state designated to participate. The Secretary
of Labor then determines whether or not the plan meets all statutory
requirements and approves or disapproves each grant award accordingly.
Through June 30, 2002, Florida was allotted over $98 million in Welfare to WtW
formula grant funds and passed through over $83 million to subgrantees. The
grant funds were allocated among Florida’s 24 participating regions with the
largest amount ($25,664,897) authorized to Region 23 - SFWB. SFWB also
manages other federally-funded grants such as TANF and WIA.

Subgrantees designated by the State to receive formula grants, such as SFWB,
assume all responsibilities required to manage the Federal funds. Specific grant
program responsibilities are defined in the CFR and associated OMB Circulars.
Three areas key to each WtW formula grant include financial management,
Federal funds matching requirement, and participant reporting.

     •   Financial Management. According to 29 CFR 95.22, WtW cash advances
         must be maintained in interest bearing accounts, and the drawdown of
         excess cash is prohibited. Furthermore, fiscal control and accounting
         procedures must be sufficient to permit the preparation of accurate FSR(s)
         due at the end of each quarter, and permit the tracing of funds to all
14
  A total of $3 billion had been appropriated for this program: $1.5 billion awarded for FY 1998 and
$1.5 billion for FY 1999. There are two kinds of grants: (1) formula grants to states and (2) competitive
grants directly to local communities.

U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                                                 31
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


                                                          Appendix A (Continued)

         related program expenditures. In general, a subgrantee must have an
         adequate financial management system to include internal and
         management controls necessary to ensure grant fund expenditures were
         allowable and authorized.

Federal Funds Matching Requirement. States participating in WtW formula
grants are entitled to receive $2 of Federal funds for every $1 of state match (the
state may request that subgrantees contribute to the match). In-kind
contributions can count towards satisfying a cost-sharing or matching
requirement. However, 20 CFR 645.300 requires any in-kind contribution to be
verifiable and traceable, whether from the grantee or subgrantee.

     •   Participant Reporting. State formula grant recipients must report
         participant data in accordance with instructions issued by the ETA.
         Reported data must be submitted as a component of the quarterly FPSR.
         Information in each quarterly report includes the number of participants
         served, the number terminated from the program, how many participants
         were placed in both subsidized and unsubsidized employment, how
         many participants retained a job for six months, and how many had
         received increased earnings from their job.




                                  U.S. Department of Labor—Office of Inspector General
32                                                        Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant

                                                                                   Appendix B



SCOPE, METHODOLOGY AND CRITERIA
OBJECTIVE

The Office of Inspector General, Office of Audit, conducted a performance audit
of the WtW formula grant administered by SFWB. Our audit objective was to
determine whether SFWB managed the federally-funded grant in accordance
with WtW legislation, associated regulations and OMB Circulars describing
grantee obligations and responsibilities. To accomplish this objective, we
designed our audit tests to answer the following three questions.

     •   Did SFWB adequately manage WtW formula grant funds?

     •   Did SFWB satisfy the State’s Federal matching requirement?

     •   Did SFWB comply with mandatory participant reporting requirements by
         submitting accurate and reliable performance reports?

SCOPE

Our audit was conducted in accordance with generally accepted government
auditing standards issued by the Comptroller General of the United States and
included such tests as we considered necessary to satisfy the audit’s objective.
The audit examined SFWB formula grants15 awarded in 1998 and 1999. From the
combined grants, SFWB received $19,836,352. The funds were originally
provided by ETA to the State of Florida and drawn down by SFWB to operate its
program. SFWB was judgmentally selected after reviewing and analyzing WtW
financial and participant reporting data as of March 31, 2002, submitted by 95
local boards in ETA’s Southeast Region. The average job placement cost per
participant for the combined 95 local boards was $6,383. SFWB’s average was
more than six times higher at $39,409.




15
  The grant awarded in 1998, referred to in this report as PY 1998, expired June 30, 2003. The
grant awarded in 1999, referred to in this report as PY 1999, expires on June 30, 2004. These
grants, as originally awarded, allowed 3 years to complete grant activities. The provisions in the
DOL Appropriations Act of 2001 extended the life of the grants for an additional 2 years, not to
exceed5 years from date of award.


U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                                     33
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



Appendix B (Continued)


Audit fieldwork was performed in Miami, Florida, during the period October
2002 through March 2003. In general, our audit tests focused in the areas of cash
management (drawdowns from the Florida Payment Management System and
bank deposits), disbursements, subsidiary and general ledger postings, Financial
Status Reports (reported expenditures and participant’s status), contract
management, and Federal grant matching. We reviewed transactions from
September 30, 1999, through June 30, 2002, using both statistical and judgmental
sampling techniques that are described in detail in the Methodology Section.
Additional audit procedures were performed in the area of cash management
through May 13, 2004.


METHODOLOGY

To gain an understanding of WtW formula grants we reviewed legislation,
regulations, and reporting guidelines. To gain an understanding of SFWB’s
operations, internal controls, and administration of their WtW grant we
interviewed various staff members from SFWB responsible for accounting and
administrative controls, program operations, financial and performance
reporting, procurement, and contract monitoring. When available, we also
reviewed policy and procedure manuals, the WtW program plan, and board
meeting minutes. We reviewed OMB Circular A-133 audit reports (Audits of
States, Local Governments, and Non-Profit Organizations) and other state
monitoring reports to identify WtW issues impacting the objective of our audit.
We relied on computer-generated data when performing our audit tests, and in
accordance with audit guidelines, we tested the validity and reliability of the
data. Specific audit tests were performed in the areas of financial management,
requirement to match the Federal grant, and participant reporting requirements
as described below.




                                U.S. Department of Labor—Office of Inspector General
34                                                      Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



                                                         Appendix B (Continued)


                               Financial Management

Financial management review covered the five areas of: cash management; using
interest bearing accounts for Federal monies; contracts; reporting of financial
transactions; and internal controls. Our methods used to review these areas are
presented below.

Cash drawn from the grantee (Florida) was reviewed to determine compliance
with the 20 CFR 97 requirements that cash may only be drawn when valid
expenditures exist. Specifically, 88 drawdowns totaling $19,836,352 covering the
time period September 30, 1999, to June 30, 2002, were verified to the SFWB
general ledger. The time period of July 1, 2001, to June 30, 2002, was the most
active during the life of both grants, therefore, we selected this period to examine
all 35 deposit transactions totaling $16,526,298. These transactions represented
83 percent of all cash drawn and deposited into the bank accounts, and the tests
were designed to ensure all monies were deposited into WtW accounts.

Additional cash management follow-on tests were also required. First, we
performed computations for lost interest since WtW drawdowns were not
deposited into interest bearing accounts. Our method to determine lost interest
was to identify daily excess cash balances and compute lost interest using the
Federal Reserve System daily interest rate. Also, we analyzed whether the
Federal Government in turn received the $8 million returned to Florida, or
whether the funds were used to offset future drawdowns. Florida Payment
Management System transactions were reviewed to identify cash credits totaling
approximately $6.5 million (money returned to the Federal Government) that
occurred in the weeks of August 23rd, August 30th, September 6th, and September
13, 2002. In addition, we analyzed Florida’s cash drawdown history for 6 months
before and 6 months after the $6.5 million cash was returned, in order to
judgmentally estimate any offsets (the cash Florida did not require from the
period August 23, 2002, to September 16, 2002). The combination of reviewing
cash returned and offsets was used to determine whether the $8 million was
returned. The date monies were returned and our offset analysis was
incorporated in our lost interest computation.




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                       35
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



                                                                       Appendix B (Continued)

We performed procedures to determine whether $13,418,322 of cumulative
expenditures reported on the June 30, 2002, Financial Status Reports16 agreed
with general ledger expenditures and whether these expenditures were
allowable under WtW regulations and OMB Circular A-87.

Also, we reviewed the financial management practices of recording transactions
to check registers, posting to subsidiary ledgers, and recording entries into the
general ledger. In addition, allocated program contract costs from the period
July 1, 2001, to June 30, 2002, totaling $2,186,404 was examined to determine
whether these costs were identifiable to WtW participants and the contracts met
Federal bid and competition requirements. For the $2,186,404 in contract
billings, we selected all 25 subcontractors to determine whether WtW services
were provided, the number of participants served, and how these services were
tracked.

We evaluated internal controls of SFWB’s financial management system. We
reviewed SFWB procedures for preparing financial statements from general
ledger entries, its retention practices for prior period financial status reports and
supporting documentation. In addition, bank deposit practices were examined
to verify actual deposits agreed with general ledger entries. Also, 379
disbursements totaling $19,121,576 in cash advances paid to subcontractors
covering the period of January 1, 2002, through March 31, 2002 were traced to
test the validity of WtW disbursements17 and whether transactions were properly
recorded into subsidiary ledgers.

                         Requirement to Match the Federal Grant

We identified and analyzed the four in-kind contributions submitted by SFWB to
help satisfy the requirement to match the Federal grant. Specifically, we
determined whether SFWB’s estimations for bus pass discounts ($90,000),
reduced community college tuition ($497,767), supervisory salaries and benefits




16
   Cumulative expenditures of $11,135,506 and $2,282,816 were reported on Financial Status Reports
for grant program years 1998 and 1999, respectively.
17
   The disbursements traced were not distinguishable by grant type such as WtW, WIA, or Welfare
Transition (WT). Consequently, all transactions were traced to the applicable subsidiary ledger, and only
WtW transactions were further examined.
                                           U.S. Department of Labor—Office of Inspector General
 36                                                                      Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant

                                                                          Appendix B (Continued)

incurred by nonprofit and government entities ($1,249,950), and the cost to
produce payroll checks ($19,500) were verifiable in accordance with 29 CFR 97
and 20 CFR 645. In addition, we assessed the propriety of each in-kind estimate
to ensure they were realistic, in agreement with service provider contracts, and
allowable by the CFR.

                             Participant Reporting Requirements

We statistically sampled 89 participants’ official case files18 from a universe of
1,410 participants to determine whether the June 30, 2002, FPSR was accurate and
reliable. To test the accuracy of the June report, we reviewed participant case
files and authenticated each of the 89 participant’s reported status. In addition to
reported status accuracy, we also determined if individuals met eligibility
requirements and had received an in-depth assessment. Eligibility19, in-depth
assessments, and FSR reporting requirements are defined in 20 CFR 645.

FSR line items were evaluated for compliance with “Instructions for Reporting
WtW Formula Grants Financial and Participant Data” issued by ETA for the
following line items:


     •   Item 24 - Participants Served
     •   Item 25 - Participants Terminated
     •   Item 26 - Placed in Unsubsidized Employment
     •   Item 27 - Employed in Unsubsidized Employment When Entering WtW
     •   Item 28 - Placed in Subsidized Employment
     •   Item 29 - Retained 6 Months (two quarters) in Unsubsidized Employment




18
   Our sample size of 82 participant case files was a random sample with a 95 percent confidence level. A
total of seven participant files were unavailable for review. Seven additional files were randomly selected
to replace those unavailable for review, resulting in 89 files with projected results.
19
   Effective July 1, 2000, the eligibility criteria were significantly amended through the passage of the
Consolidated Appropriations Act for FY 2000 that contains the WtW and Child Support Amendments of
1999. The effective eligibility criteria were determined based on the date of eligibility determination
indicated in the case files.

U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                                              37
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




          <THIS PAGE INTENTIONALLY LEFT BLANK>




                             U.S. Department of Labor—Office of Inspector General
38                                                   Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



                                                              Appendix C




      ACRONYMS AND ABBREVIATIONS




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                              39
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



                                                                   Appendix C



ACRONYMS AND ABBREVIATIONS

AWI         -     Agency for Workforce Innovations
CFR               Code of Federal Regulations
DOL               Department of Labor
ETA               Employment and Training Administration
FPSR              Federal Participant Summary Reports
FSRs              Financial Status Reports
OMB               Office of Management and Budget
MDCC              Miami Dade Community College
MDCPS             Miami Dade Community County Public Schools
PY                Program Year
SFWB              South Florida Workforce Board
TANF              Temporary Assistance for Needy Families
WAGES             Work and Gain Economic Self-Sufficiency
WIA               Workforce Investment Act
WtW               Welfare-to-Work
WWW               Welfare-to-Work Welfare Transition WIA Contracts




                             U.S. Department of Labor—Office of Inspector General
40                                                   Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




         RESPONSE TO DRAFT REPORT




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                              41
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




          <THIS PAGE INTENTIONALLY LEFT BLANK>




                             U.S. Department of Labor—Office of Inspector General
42                                                   Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


                                                              Appendix D




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                              43
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




          <THIS PAGE INTENTIONALLY LEFT BLANK>




                             U.S. Department of Labor—Office of Inspector General
44                                                   Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant




                                                              Appendix D



                         Response To
                     Performance Audit of
                 South Florida Workforce Board
                    Welfare-to-Work Formula
                  Grants PY 1998 and PY 1999
               September 30, 1999 to June 30, 2002



            Edith Humes-Newbold, Interim Executive Director
                       South Florida Workforce

                                 September 27, 2004




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                              45
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant

                                                                      Appendix D

      Finding I

      Inadequate Financial Management System Resulted in
      Mismanagement of WtW Formula Grant Funds

      As of June 30, 2002, SFWB officials had drawn approximately $19.8 million
      from the grant, but only had approximately $7.9 million in expenditures
      recorded in their general ledger. The $11.9 million difference represented
      excess cash. In August 2002, SFWB returned $7.7 million to the state of
      Florida, however, approximately $4.2 million was not accounted for, and
      as a result we question these costs. Additionally, as a result of the excess
      cash drawn, the US Treasury lost $162,059 in interest earnings relating to
      the excess cash not deposited into an interest bearing account. SFWB
      provided documentation to support that they returned $4,226,850 to AWI
      out of WtW grant funds after our fieldwork concluded.

      Also, we question contract costs totaling $2,186,404 resulting from costs
      that could not be supported as serving WtW participants and SFWB’s
      contracting process not meeting Federal competition requirements.
      Finally, we identified internal control weaknesses related to the untimely
      preparation of financial statements, unlocated financial reports, grant
      monies deposited into the wrong bank account, and inaccurate subsidiary
      ledger entries. These weaknesses in internal controls contributed to a
      significant error in financial reporting. The June 30, 2002, expenditure
      report used to track program costs, contained a $5.5 million error that
      resulted from reported expenditures of approximately $13.5 million
      compared to general ledger entries of $8 million.

      SFWB Response:

      During the August 26, 2004 meeting with USDOL representatives, SFW
      produced copies of check numbers 015303 dated May 5, 2001 and 012034
      dated October 30, 2003 documenting the return of the questioned $4.2
      million.

      Although we agree that interest was not earned on WtW funds prior to
      December 2002, we believe that there was no net effect to the Federal
      Treasury. As the audit report points out, due to discrepancies in the way



                                U.S. Department of Labor—Office of Inspector General
46                                                      Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



                                                        Appendix D (Continued)

indirect costs were allocated to WtW, more WtW cash was drawn than should
have been.

However, this meant that other Federal grant programs were under drawn,
thereby allowing this cash to remain in the Treasury to earn interest, which
should have offset what was lost on WtW funds. We suggest that the OIG
consider this compensating factor and eliminate the issue of interest repayment.
WtW participants and Welfare Transition (“WT”) participants were dually
enrolled as allowed by Federal Regulations (20CFR § 645.220). The services
allowable under the WT program were also allowable under WtW. Since
participants were dually enrolled, the One-Stop system, which had gone through
a competitive process for the WT and WIA programs, had the WtW program
integrated in the service array for full integration of all programs. In compliance
with applicable regulations, WT dollars were utilized first to provide services to
the dually enrolled participants. The total amount spent on services for the
dually enrolled population exceeded the annual WT allocation SFWB was able to
draw upon. As previously stated in our August 13, 2003 response, our records
reflect that, except for the Florida Keys, all one-stop locations had active WtW
participants. Neither MDCC nor MDCPS were one-stop operators. They
functioned as resource centers assisting participants who were in the caseloads of
the one-stops and who were receiving training on their campuses. We urge the
OIG to reconsider the use of these issues as basis for questioning all WtW costs
for the 2001-2002 fiscal year. We do not believe that the weaknesses cited by the
OIG rise to the level that justifies such a conclusion.

Prior to the implementation of the Micro Information Products (MIP) accounting
system on July 1, 2002, SFWB did not have an effective automated accounting
system. The internal control weaknesses that are cited have been addressed. The
incorrect financial reporting was addressed during SFWB’s annual audit and the
accounting records were corrected.

Finding II

Unauthorized and Unsupported In-kind Contributions Resulted in
Noncompliance with Florida’s Federal Matching Requirement
SFWB’s in-kind contribution of $1,857,217, used to help satisfy the state’s Federal
matching requirement, was not verifiable. Specifically, $855,091 does not meet
the requirements for in-kind contribution. The remaining $1,002,126 does not
meet the Code of Federal Regulation’s verifiable and traceable requirement

U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                      47
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant


                                                       Appendix D (Continued)

      because supporting documents were not retained to substantiate that the
      match occurred. After our fieldwork ended, the State of Florida has
      provided
      documentation that it was able to meet its match requirements without
      the use of SFWB’s contribution.

      SFWB Response:

      SFWB maintains that it did meet its match requirement through
      discounted bus passes to eligible WtW participants, reduced tuition at the
      local community college, supervisory staff time costs to supervise WtW
      participants who were employed, and the costs associated with processing
      WtW participant payrolls. SFWB acknowledges that there were record
      keeping issues that may impact the allowability of these items as match
      subsequent to their being reported.

      As stated in the finding, the Agency for Workforce Innovation
      documented that the state had ample match expenses to offset any SFWB
      match shortfall due to poor record keeping.

      Finding III

      Participant Performance Data Reported to Florida and to ETA
      Were Unreliable and Inaccurate

      SFWB did not comply with mandatory participant reporting
      requirements. Performance reports submitted to Florida and the United
      States Department of Labor’s, (DOL) Employment and Training
      Administration, (ETA) were inaccurate and unreliable. Using statistical
      estimation techniques, we project 1,173 of the program’s 1,410 participants
      were either misreported on the June 30, 2002, report or their status could
      not be confirmed because the official participant files were missing. One
      example of misreporting occurred when participants were reported as
      served by virtue of being enrolled in the program even though they did
      not receive any WtW services.




                               U.S. Department of Labor—Office of Inspector General
48                                                     Report No: 04-04-002-03-386
Audit of South Florida Workforce Board’s Welfare-to-Work Formula Grant



                                                       Appendix D (Continued)


SFWB Response:

SFWB acknowledges that seven of 82 participant files that were requested from
contracted service providers could not be produced. The majority of the missing
files were from one service provider, the City of Miami, who received multiple
requests from SFWB to produce the files. At the time of the request, the City of
Miami was no longer a service provider for SFWB and may not have given the
requests sufficient priority. SFWB does not agree that the number of files the
City of Miami failed to produce should be extrapolated to the universe because
these results are an exception from our normal experience with our service
providers.

The 34 participants identified as not having received WtW services were in fact
dually enrolled and provided services.

The 21 individuals with no services for over 90 days were purposely not
terminated due to our understanding that they could receive support services,
placement assistance, etc as they had not achieved economic sufficiency. It was
not our interpretation of ETA’s suggested guidelines that these participants had
to be terminated after 90 days since they were eligible for continued services.

SFWB acknowledges that clerical errors were made in reporting participant data.




U.S. Department of Labor-Office of Inspector General
Report No: 04-04-002-03-386                                                  49
